1a
APPENDIX A
IN THE SUPREME COURT OF MISSISSIPPI
NO. 2019-IA-00033-SCT
JOHNSON & JOHNSON AND JOHNSON &
JOHNSON CONSUMER COMPANIES, INC.
v.
LYNN FITCH, ATTORNEY GENERAL OF THE
STATE OF MISSISSIPPI EX REL. STATE OF
MISSISSIPPI
DATE OF JUDGMENT:
TRIAL JUDGE:
COURT FROM WHICH
APPEALED:
ATTORNEYS FOR
APPELLANTS:

ATTORNEYS FOR
APPELLEE:

12/18/2018
HON. J. DEWAYNE
THOMAS
HINDS COUNTY
CHANCERY COURT
MEADE W. MITCHELL
JOHN C. HENEGAN
ORLANDO R.
RICHMOND
MARK A. DREHER
CHARLES A. BYRD
PETER C. HARVEY
ERIN P. LANE
PATRICK C. MALOUF
TA’SHIA S. GORDON
TIMOTHY W. PORTER
LAUREL LI HARRIS
R. ALLEN SMITH, JR.
WENDY R.
FLEISHMAN

2a

NATURE OF THE
CASE:
DISPOSITION:

PAULINA DO
AMARAL
GEORGE W. NEVILLE
DONALD L. KILGORE
JACQUELINE H. RAY
CIVIL - OTHER
AFFIRMED AND
REMANDED 04/01/2021

MOTION FOR
REHEARING FILED:
MANDATE ISSUED:
EN BANC.
COLEMAN, JUSTICE, FOR THE COURT:
¶1.
The case sub judice case comes before the
Court on interlocutory appeal. The appeal presents
two questions of law concerning the validity of a cause
of action brought by the Mississippi Attorney General
under the Mississippi Consumer Protection Act,
Mississippi Code Section 75-24-5. The first is whether
the Act covers the State’s claim, and the second is
whether that claim is preempted by federal law. The
Chancery Court of Hinds County denied the summary
judgment motion made by Johnson & Johnson and
Johnson & Johnson Consumer, Inc. Johnson &
Johnson then filed an interlocutory appeal of the
chancellor’s decision, which the Court granted.

3a
FACTS AND PROCEDURAL HISTORY
¶2.
Johnson & Johnson is a New Jersey
corporation and is one of the largest companies in the
world. Johnson & Johnson is engaged in the business
of, among other things, manufacturing, selling, and
marketing consumer products that include talc. One
of Johnson & Johnson’s most popular products is
Johnson’s Baby Powder, which it has sold since the
1890s. Up until 2020, one of the primary ingredients
of the popular product was talc.
¶3.
Talc is a hydrous magnesium silicate, an
inorganic mineral that is mined from the earth. Talc
has been used in the manufacture of many goods, such
as plastic, rubber, ceramics, and cosmetics. Talc is
commonly known as talcum powder. For decades, talc
has been at the center of controversy. During that
time, many studies gave rise to claims of risk of cancer
associated with the use of products containing talc.
¶4.
In 2014, the State commenced an action
against Johnson & Johnson for what it alleged to have
been unlawful, unfair, and deceptive business
practices related to its cosmetic talcum powder
products. The specific cosmetic products at issue are
Johnson & Johnson’s Johnson’s Baby Powder and
Shower to Shower. Specifically, the State alleged that
Johnson & Johnson failed to warn of the risk of
ovarian cancer in women who used talc. In its
complaint, the State relied on “numerous studies over
the last several decades” that the State alleged
“revealed a significant link between the use of talcum
powders with an increased risk of ovarian cancer.”

4a
The State’s complaint sought, among other things, an
injunction pursuant to the Consumer Protection Act
to require Johnson & Johnson to warn of the hazards
associated with talc use. The State further sought a
civil penalty of up to $10,000 for each violation of the
Act.
¶5.
Johnson & Johnson then moved for summary
judgment. Johnson & Johnson argued that the
chancery court should grant summary judgment
because the Act does not apply to the labeling of
products regulated by the federal Food and Drug
Administration. Additionally, Johnson & Johnson
argued that even if the Act applies, summary
judgment was still proper because federal law
preempts the State’s labeling claim. Johnson &
Johnson heavily relied on the Administration’s
consideration of two citizen petitions, one from 1994
and another from 2008. Both petitions requested that
the Administration to “require a cancer warning on
cosmetic talc products.” After careful review,
however, the Administration denied both citizen
petitions because it “did not find that the data
submitted presented conclusive evidence of a causal
association between talc use in the perineal area and
ovarian cancer.”
¶6.
On December 18, 2018, the chancery court
denied Johnson & Johnson’s motion for summary
judgment. While the chancellor acknowledged
Johnson & Johnson’s substantive arguments, the
chancellor ultimately denied summary judgment
because of the existence of factual disputes regarding
Johnson & Johnson’s knowledge of a link between talc

5a
and ovarian cancer and Johnson & Johnson’s failure
to disclose the risks. Johnson & Johnson now appeals
the chancellor’s denial of its summary judgment
motion.
STANDARD OF REVIEW
¶7.
An appellate court in Mississippi applies a de
novo standard of review when it reviews a trial court’s
grant or denial of summary judgment. WW, Inc. v.
Rainbow Casino-Vicksburg P’ship, L.P., 68 So. 3d
1290, 1292 (¶ 6) (Miss. 2011) (quoting Anderson v.
Alps Automotive, Inc., 51 So. 3d 929, 931 (¶ 11) (Miss.
2010)). Courts must apply a de novo standard when
considering “[m]atters of statutory interpretation[.]”
Chandler v. McKee, 202 So. 3d 1269, 1271 (¶ 5) (Miss.
2016) (citing Wallace v. Town of Raleigh, 815 So. 2d
1203, 1206 (¶ 7) (Miss. 2016)). Finally, the issue of
preemption is a question of law, that is a “legal one
for the judge, not a jury,” Merck Sharp & Dohme Corp.
v. Albrecht, 139 S. Ct. 1668, 1679, 203 L. Ed. 2d 822
(2019), and a court reviews a question of law under a
de novo standard of review. Debrow v. State, 972 So.
2d 550, 552 (¶ 6) (Miss. 2007) (citing Biglane v. Under
the Hill Corp., 949 So. 2d 9, 14 (¶ 17) (Miss. 2007)).
DISCUSSION
¶8.
The State commenced its lawsuit against
Johnson & Johnson pursuant to the Mississippi
Consumer Protection Act. Miss. Code Ann. § 75-24-5
(Rev. 2016). The Act prohibits acts that constitute
“unfair or deceptive trade practices in or affecting
commerce[.]” Miss. Code Ann. § 75-24-5(1) (Rev.
2016). The State argues that by failing to include

6a
warning labels on cosmetic talc products, Johnson &
Johnson violated the Act by engaging in
impermissible “unfair or deceptive trade practices.”
In response, Johnson & Johnson argues that the
State’s labeling claim is excluded from the Act and
that federal law preempts such a claim. Specifically,
Johnson & Johnson argues that since the Act is
modeled after the Federal Trade Commission Act, and
since the federal Act excludes the regulation of labels,
then the Act must also exclude the regulation of
labels, and the State’s claim is barred. Additionally,
Johnson & Johnson contends the federal Food, Drug,
and Cosmetic Act (FDCA) preempts the State’s
labeling claim.
I. The Mississippi Consumer Protection Act
governs the State’s labeling claim.
¶9.
Johnson & Johnson argues that the Act
excludes the regulation of labels. Johnson & Johnson
first contends that the Mississippi Legislature
modeled the Act after the Federal Trade Commission
Act. Johnson & Johnson points to Mississippi Code
Section 75-24-3(c), which provides that “[i]t is the
intent of the Legislature that in construing what
constitutes unfair or deceptive trade practices that
the courts will be guided by the Federal Trade
Commission and the federal courts to Section 5(a)(1)
of the Federal Trade Commission Act (15 USCS
45(a)(1)) as from time to time amended.” Miss. Code
Ann. § 75-24-3(c) (Rev. 2016) (emphasis added). Thus,
since the words “guided by”are included in the Section
75-24-3(c), Johnson & Johnson argues that “this
Court must construe the Act in accordance with its

7a
federal ‘parent’
Commission Act.

statute,”

the

Federal

Trade

¶10.
Next, Johnson & Johnson argues that the
Federal Trade Commission Act explicitly excludes the
regulation of labels on cosmetics. Johnson & Johnson
contends that the Federal Trade Commission Act
defines “[u]nfair or deceptive act or practice” to
include “[t]he dissemination or causing to be
disseminated of any false advertisement[.]” 15 U.S.C.
§ 52(b) (emphasis added). Johnson & Johnson then
provides the Federal Trade Commission Act’s
definition
of
false
advertisement
as
“an
advertisement, other than labeling, which is
misleading in a material respect[.]” 15 U.S.C.
§ 55(a)(1) (emphasis added). By defining unfair or
deceptive trade practices to include false advertising
and then by defining false advertising to exclude
labeling, Johnson & Johnson argues that the
definitions exclude labeling from the Federal Trade
Commission Act’s reach, and since labeling is beyond
the Federal Trade Commission Act’s reach, Johnson
& Johnson argues that it is also beyond the Act’s
reach.
¶11.
As previously noted, Section 75-24-3(c)
references 15 U.S.C. § 45(a)(1). The State, however,
contends that Johnson & Johnson does not cite
15 U.S.C. § 45(a)(1) to argue the Federal Trade
Commission Act excludes labeling from unfair or
deceptive trade practices. Instead, the State argues
that Johnson & Johnson erroneously cites the Federal
Trade Commission Act’s separate false advertising
prohibition against labeling found in 15 U.S.C.

8a
§§ 52(b) and 55(a)(1). The State argues that “[t]he
FTC Act’s false advertising prohibition does not
include labeling, but that limit explicitly applies only
‘For the purposes of sections 52 to 54,’ not § 45(a)(1),
the section in which the Act instructs courts to be
‘guided’ by.” See 15 U.S.C. § 55.
¶12.
In construing what constitutes unfair or
deceptive trade practices, the Act requires that courts
be “guided by the interpretations given by the Federal
Trade Commission and the federal courts[.]” Miss.
Code Ann. § 75-24-3(c). Here, the State argues that
Johnson & Johnson misconstrues the Act’s rule of
construction. While the Act provides that courts will
be “guided by” the Federal Trade Commission Act, the
State contends that “guided by” does not mean that
courts are bound by or limited by the federal Act.
¶13.
Recently, in Watson Laboratories, Inc. v.
State, 241 So. 3d 573 (Miss. 2018), the Court
addressed a similar issue involving the interpretation
of Section 75-24-3(c). In Watson, the State brought a
consumer protection action against prescription drug
manufacturers under the Act. Id. at 576. There, the
State alleged that the manufacturers inflated
reported prices which, in turn, caused the Mississippi
Division of Medicaid to reimburse pharmacies at the
inflated prices. Id. The chancellor agreed with the
State in that case, but on appeal, Watson argued that
the chancellor applied the incorrect legal test or
standard. Relying on the “guided by” language in
Section 75-24-3(c), Watson argued that a different
test or standard, one that the Federal Trade
Commission adopted, must be applied. Id. at 577, 590

9a
In rejecting Watson’s argument, the Court announced
that
Nothing in Section 75-24-3(c), though,
delegates the chancellor’s determination to
the federal courts, nor does the statute bind
Mississippi judges to varied, changing
decisions at the federal level. The judges, as
factfinders in bench trials, and the juries of
the State of Mississippi are perfectly capable
of determining—while being “guided” by
federal authority—what are deceptive
practices. That is exactly what the chancellor
did here.
Id. at 590.
¶14.
Johnson & Johnson argues that the case sub
judice is unlike Watson because it involves one federal
standard, namely that the Federal Trade Commission
Act excludes cosmetic label regulation, so the Act
must also exclude such regulation. Johnson &
Johnson distinguishes Watson because it involved a
choice between two different federal standards. Here,
however, the State contends that the Court’s
reference in Watson to “varied, changing decisions at
the federal level” does not isolate Watson to cases only
involving two or more federal standards.
¶15.
Watson merely emphasized the principle that
Section 75-24-3(c) does not wholly limit a Mississippi
judge’s determination to federal law. Id. If judges in
Mississippi were bound by the federal Act, then
Mississippi would be left without a legal mechanism
to address labeling issues. Unlike Mississippi, the

10a
federal system assigns the regulation of labeling
issues to the Food and Drug Administration. There is
even an agreement between the Federal Trade
Commission and the Administration that delegates
the regulation of labels to the Administration. No
such dual system exists in Mississippi. Instead, the
Act is the legal mechanism available to govern the
regulation of labels.1
¶16.
Like the chancellor in Watson, the chancellor
here is not bound by a federal court or Federal Trade
Commission interpretation of the Federal Trade
Commission Act. Instead, a chancellor is to be guided
by such interpretations, just as Section 75-24-3(c)
commands. Accordingly, the Act does not preclude the
State’s claim.
II. Federal law does not preempt the State’s
claim.
¶17.
Additionally, Johnson & Johnson argues that
the chancellor should have granted summary
judgment because federal law preempts the State’s
In 1971, the Federal Trade Commission and the Food and Drug
Administration entered into a Memorandum of Understanding.
Memorandum of Understanding Between Federal Trade
Commission and the Food and Drug Administration, 36 Fed.
Reg. 18,539 (Sept. 16, 1971). The agreement between the two
agencies provided that, with the exception of prescription drugs,
the Commission regulates “the truth or falsity of all advertising
(other than labeling) of foods, drugs, devices, and cosmetics.” Id.
(emphasis added). Then the Food and Drug Administration
regulates “all matters regulating the labeling of foods, drugs,
devices, and cosmetics.” Id. (emphasis added).
1

11a
talc labeling claim. Specifically, Johnson & Johnson
contends that the State’s claim is expressly
preempted under the FDCA’s express preemption for
cosmetic labels. Also, Johnson & Johnson argues that
a Food and Drug Administration regulation impliedly
preempts the State’s claim.
A)

An Overview on Preemption

¶18.
The Supremacy Clause of Article VI of the
United States Constitution provides that “the Laws of
the United States … shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.” U.S. Const.
art. VI, cl. 2. Thus, as the Supreme Court of the
United States has stated, “since our decision in
M’Culloch v. Maryland, 17 U.S. (4 Wheat.) 316, 427,
4 L. Ed. 579 (1819), it has been settled that state law
that conflicts with federal law is ‘without effect.’”
Cipollone v. Liggett Grp., Inc., 505 U.S. 504, 516
(1992) (quoting Maryland v. Louisiana, 451 U.S. 725,
746 (1981)). “Consideration of issues arising under
the Supremacy Clause ‘start[s] with the assumption
that the historic police powers of the States [are] not
to be superseded by … Federal Act unless that [is]
the clear and manifest purpose of Congress.’” Id.
(alterations in original) (quoting Rice v. Santa Fe
Elevator Corp., 331 U.S. 218, 230 (1947)). Therefore,
“‘[t]he purpose of Congress is the ultimate touchstone’
of pre-emption analysis.” Id. (quoting Malone v. White
Motor Corp., 435 U.S. 497, 504 (1978)).

12a
¶19.
Congress may show “preemptive intent
through a statute’s express language or through its
structure and purpose.” Altria Group, Inc. v. Good,
555 U.S. 70, 76 (2008). If Congress gave an express
preemption provision, the provision does not
automatically end the inquiry because a court must
still determine the question of “the substance and
scope of Congress’ displacement of state law[.]” Id.
B) Federal law does not expressly preempt the
State’s claim.
¶20.
Johnson & Johnson argues that federal law
expressly preempts the State’s talc labeling claim.
Specifically, Johnson & Johnson contends that the
FDCA includes a provision that expressly preempts
state law regulation of cosmetics labels.
¶21.
In 1997, to ensure that federal requirements
are not frustrated by state law, Congress added an
express preemption provision to the FDCA that
specifically covered cosmetics. Id. (citing Food and
Drug Administration Modernization Act of 1997, Pub.
L. No. 105-115, § 752, 111 Stat. 2296, 2376 (1997)).
That provision provides:
Except as provided in subsection (b), (d), or
(e), no State or political subdivision of a State
may establish or continue in effect any
requirement for labeling or packaging of a
cosmetic that is different from or in addition
to, or that is otherwise not identical with, a
requirement specifically applicable to a
particular cosmetic or class of cosmetics
under this chapter, the Poison Prevention

13a
Packaging Act of 1970 (15 U.S.C. 1471 et
seq.), or the Fair Packaging and Labeling Act
(15 U.S.C. 1451 et seq.).
21 U.S.C. § 379s(a) (emphasis added).
¶22.
The State sought to require Johnson &
Johnson to establish an ovarian cancer warning on
Johnson & Johnson’s talc cosmetic products. Johnson
& Johnson argues that the action is expressly
preempted by § 379s(a). While an express preemption
provision indeed applies to cosmetics regulation, as
stated previously, in order for the provision to fully
apply, the Court must determine whether the State’s
sought requirement falls within the provision’s scope.
See Altria, 555 U.S. at 76. The express preemption
provision preempts state requirements that
“establish or continue in effect [a] requirement for
labeling or packaging of a cosmetic that is different
from or in addition to … a requirement specifically
applicable to a particular cosmetic or class of
cosmetics under this chapter[.]” 21 U.S.C. § 379s(a)
(emphasis added). However, in the case sub judice,
there was no requirement by the Food and Drug
Administration.
¶23.
As previously noted, the FDCA vested the
Administration with the authority to require labels
for cosmetics. 21 U.S.C. § 371(a). Johnson & Johnson
argues that the Food and Drug Administration’s
decision in two citizen petitions establishes
preemption.
¶24.
Several Administration regulations within
Title 21 of the Code of Federal Regulations govern the

14a
Administration’s citizen petition process. First, the
Food and Drug Administration provides that:
(a) An interested person may petition the
Commissioner to issue, amend, or revoke a
regulation or order, or to take or refrain from
taking any other form of administrative
action. A petition must be either:
(1) In the form specified in other applicable
FDA regulations, e.g., the form for a color
additive petition in § 71.1, for a food additive
petition in § 171.1, for a new drug application
in § 314.50, for a new animal drug application
in § 514.1, or
(2) in the form for a citizen petition in § 10.30.
21 C.F.R. § 10.25(a)(1)-(2) (West, Westlaw through
Mar. 4, 2021) (emphasis added).
¶25.
Second, 21 C.F.R. § 10.30 specifically outlines
the citizen petition process—a process that is subject
to judicial review. See 21 C.F.R. § 10.30(k) (West,
Westlaw through Mar. 4, 2021). Finally, “[u]nless
otherwise provided, the Commissioner’s final decision
constitutes final agency action (reviewable in the
courts under 5 U.S.C. 701 et seq. and, where
appropriate, 28 U.S.C. 2201) on a petition submitted
under § 10.25(a)[.]” 21 C.F.R. § 10.45(d) (West,
Westlaw through Mar. 4, 2021) (emphasis added).
The regulations establish that a final decision by the
Food and Drug Administration on a citizen petition
constitutes a final agency action that is subject to
judicial review.

15a
¶26.
In 2014, in accordance with the above
regulations, the Administration responded by letter
to the Cancer Prevention Coalition’s 1994 and 2008
citizen petitions. Both citizen petitions requested
“that the Food and Drug Administration (FDA or the
Agency) require a cancer warning on cosmetic talc
products” because of the risk of ovarian cancer after
applying talc “in the female genital area.” In its letter,
the Food and Drug Administration denied the citizen
petitions’ request for ovarian cancer warnings
because the “FDA did not find that the data submitted
presented conclusive evidence of a casual association
between talc use in the perineal area and ovarian
cancer.” In order to be binding on the public, the Food
and Drug Administration must follow the notice and
comment rule making process. U.S. Food & Drug
Admin., The Food and Drug Administration’s
Development, Issuance, and Use of Guidance
Documents, 62 Fed. Reg. 8961, 1997 WL 79385 (Feb
27, 1997). While the Food and Drug Administration
letter is considered a final agency action, it does not
follow the notice and comment rule making process.
In a similar case, a letter written by the commissioner
of the Food and Drug Administration was deemed
inaction, and the United States Court of Appeals for
the Third Circuit held, “the FDA has not acted to
regulate it in a manner that could preempt [the
plaintiff’s] claims.” Fellner v. Tri-Union Seafoods,
L.L.C., 539 F.3d 237, 253 (3d Cir. 2008). Additionally,
the United States Supreme Court has held that courts
“have a duty to accept the reading that disfavors
pre-emption.” Bates v. Dow Agrosciences LLC, 544
U.S. 431, 449 (2005). Through its inaction, the Food
and Drug Administration declined to make a

16a
requirement regarding cancer warnings for cosmetic
products that contain talc.
¶27.
“Where a statute is unambiguous, the Court
must apply the statute according to its plain meaning,
refraining from principles of statutory construction.”
Carver v. Pub. Emps.’ Ret. Sys. of Miss., 306 So. 3d
694, 698 (¶ 12) (Miss. 2020) (internal quotation marks
omitted) (quoting OXY USA, Inc. v. Miss. State Tax
Comm’n, 757 So. 2d 271, 274 (¶ 12) (Miss. 2000)). By
its plain language, § 379s(a) only applies if the Food
and Drug Administration adopts “a requirement
specifically applicable” to a given cosmetic.
Accordingly, the Food and Drug Administration’s
decision not to act cannot be deemed to be a
requirement for purposes of § 379s(a). In other words,
the preemption statute requires the existence in
federal law of a positive expression of regulation
applicable to a specific product. The Food and Drug
Administration’s decision not to adopt any such
regulation cannot, as it were, fit the bill. Accordingly,
the State’s claim is not expressly preempted under 21
U.S.C. § 379s(a).
¶28.
Johnson & Johnson also argues that the
State’s claim is barred by principles of implied
preemption. Johnson & Johnson argues that obstacle
preemption bars the State’s claim, citing
International Paper Co. v. Ouellette, 479 U.S. 481, 494
(1987). “[T]he state law … is preempted if it interferes
with the methods by which the federal statute was
designed to reach this goal.” Id. However, the Food
and Drug Administration has declined to create a
requirement, either positive or negative, regarding

17a
the cosmetic or class of cosmetics listed in the State’s
claim, thus no interference could occur. There is no
need to guess what Congress’ goal was when § 379s(a)
was enacted. The statute clearly prohibits states from
having a requirement that is different from or in
addition to a requirement that is already in place by
the Food and Drug Administration. However, in the
case sub judice, there is no existing requirement in
place. Accordingly, the Food and Drug Administration
chose not to exercise its regulatory authority,
allowing the states the freedom to regulate cosmetics
instead.
CONCLUSION
¶29.
The Act does not exclude the State’s talc
labeling claim. Additionally, because of the lack of any
specific requirement by the Food and Drug
Administration, the State’s claim is not barred by the
principles of express or implied preemption.
Therefore, the judgment of the Chancery Court of
Hinds County is affirmed, and the case is remanded.
¶30.

AFFIRMED AND REMANDED.

RANDOLPH, C.J., KITCHENS AND KING,
P.JJ., MAXWELL, BEAM, CHAMBERLIN,
ISHEE AND GRIFFIS, JJ., CONCUR.

18a
APPENDIX B
IN THE CHANCERY COURT OF THE FIRST
JUDICIAL DISTRICT
OF HINDS COUNTY, MISSISSIPPI
STATE OF MISSISSIPPI, ex rel. JIM HOOD,
ATTORNEY GENERAL
PLAINTIFF
V.
CAUSE NO. G-2014-1207
JOHNSON & JOHNSON; JOHNSON & JOHNSON
CONSUMER COMPANIES, INC.; VALEANT
PHARMACEUTICALS INTERNATIONAL, INC.;
VALEANT
PHARMACEUTICALS
NORTH
AMERICA, LLC
DEFENDANTS
ORDER OF THE COURT
BEFORE THIS COURT is the Motion for
Summary Judgment and Joint Motion for Summary
Judgment filed herein by Defendants, Johnson &
Johnson, Johnson & Johnson Consumer Companies,
Inc. (collectively “J&J”) and Valeant Pharmaceutical
International, Inc., and Valeant Pharmaceuticals
North America, LLC (collectively “Valeant”),
respectively. J&J Defendants have also filed a related
Motion to Strike Plaintiff’s Second Supplement to
Memorandum of Law in Opposition to Motion for

19a
Summary Judgment. This Court has held hearing on
the matter and has received proposed supporting
memorandum and argument from all parties. This
Court has considered all arguments as well as all
relevant case and statutory law. After careful
consideration, this Court hereby finds and orders as
follows, to-wit:
Jim Hood, Attorney General ex. rel. State of
Mississippi has filed this suit on behalf of the State of
Mississippi itself and in a parens patriae capacity on
behalf of the individual citizens of the State of
Mississippi under the Mississippi Consumer
Protection Act (“MCPA”). The Complaint was filed on
August 22, 2014, in Hinds County. Plaintiff alleges
that the Defendants Johnson & Johnson; Johnson &
Johnson Consumer Companies, Inc. (hereinafter
collectively
“Johnson
Defendants”);
Valeant
Pharmaceuticals International, Inc (“VPII”) and
Valeant Pharmaceuticals North America, LLC
(“VPNA”) misrepresented the uses, benefits, qualities
and standards of the talc containing products sold by
them in the State of Mississippi. Plaintiff asserts that
Defendants failed to inform Mississippi residents of
existing scientific evidence identifying an increased
risk of ovarian cancer with the perineal use of the talc
containing products. Plaintiff seeks redress from the
Defendants as a result of the Defendants allegedly
unlawful, unfair and deceptive business practices
related to the manufacturing, sale and marketing of
their talc containing products, namely, Johnson’s
Baby Powder® and Shower to Shower®, which the
State claims violates § 75-24-5.

20a
Defendants herein assert that summary
judgment is proper for two (2) reasons: (1) the MCPA
does not apply to the labeling of cosmetic products;
and (2) the State’s labeling claim is preempted by the
FDA’s decision to reject cancer warnings for talc
cosmetic products. The standard for summary
judgment is well established: “The judgment sought
shall be rendered forthwith if the pleadings,
depositions, answers to interrogatories and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law.” Mississippi Rules of
Civil Procedure 56(c). “All that is required of a
non-movant to survive a motion for summary
judgment is to establish a genuine issue of material
fact by means available under the rule.” Lyle v.
Mladinich, 584 So.2d 397, 398 (Miss. 1991).
After considering all oral and written
submissions, this Court finds that there are genuine
issues of material fact in this cause that may result in
“triable issues.” See Great Southern Nat’l Bank v.
Minter, 590 So. 2d 129, 135 (Miss. 1991). In this case,
there are clearly material issues to which one party
swears to one version and the other party swears to
the opposite. See Wright v. Allstate Indemnity Co., 618
So. 2d 1296 (Miss. 1993). Specifically, Plaintiff alleges
that Defendants knew or had reason to know by 1974
that talc products sold to women for perineal use were
unsafe and likely increased the risk of ovarian cancer.
Defendants dispute the same. Likewise, Plaintiff
asserts that Defendants were aware of the risks
associated with perineal talc product use and failed to

21a
truthfully and accurately disclose such risks.
Plaintiff’s assertions of failure to warn will involve a
careful review of statutory schemes in light of facts
upon which the parties simply disagree. It is not the
role of this Court to try issues on a summary
judgment motion, but only to decide if there are issues
to be tried. Mississippi Ins. Guaranty Association v.
Byars, 614 So. 2d 959 (Miss. 1993). In the case at
hand, this Court finds that there are issues to be fully
tried. Our Mississippi Supreme Court has stated that
the trial court may and should deny summary
judgment “when it has any doubt as to the wisdom of
terminating the action prior to a full trial.” Donald v.
Reeves Transport Co., 538 So. 2d 1191, 1196 (Miss.
1989) (quoting Wright & Miller, § 2728). In the
instance of a complex legal matter involving such
serious allegations, the Court does have grave doubts
as to the wisdom of terminating this action prior to a
full trial. Discovery is ongoing in this matter and
expert discovery has not yet commenced. The Court
would be remiss in disposing of this action without
allowing full development of all potentially relevant
facts.
Similarly, this Court, in viewing the facts and
inferences in the light most favorable to the Plaintiff,
cannot unequivocally find that Defendants are
entitled to prevail as a matter of law. Mississippi law
is clear that Summary Judgment should be granted
cautiously. Brown v. Credit Center, Inc., 444 So. 2d
358 (Miss. 1987). In fact, our Mississippi Supreme
Court has stated that all summary judgment motions
should be viewed with great skepticism and that the
trial court should err on the side of denying the

22a
motion. Daniels v. GNB, Inc., 629 So. 2d 595 (Miss.
1993). After cautiously considering the motion in this
cause, this Court simply cannot find that the strict
standard for Summary Judgment has not been met.
Therefore, Defendants’ Motion for Summary
Judgment pursuant to Rule 56 of the Mississippi
Rules of Civil Procedure is denied. Furthermore, the
Court finds that the Defendants’ Motion to Strike is
hereby rendered moot and is denied.
SO ORDERED, ADJUDGED, AND DECREED
THIS the 18th day of December, 2018.
/s/ Chancellor J. Dewayne Thomas
CHANCELLOR J. DEWAYNE THOMAS

